TN

C@OCKLE

2311 Douglas Street 4 E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga l B gle fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No, 19-221
MICHELLE VALENT,
Petitioner,

Vv.
ANDREW M. SAUL,
COMMISSIONER OF SOCIAL SECURITY,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE SOUTHEASTERN LEGAL
FOUNDATION IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
KIMBERLY S. HERMANN
Counsel of Record
SOUTHEASTERN LEGAL FOUNDATION
560 W. Crossville Rd., Ste. 104
Roswell, GA 30075
(770) 977-2131
khermann@southeasternlegal.org

Counsel for Amicus Curiae

Subscribed and sworn to before me this 19th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths,

PATRICIA BILLOTTE

General Notary . \
State of Nebraska : LE ,
My Commission Expires Nov 24, 2020 :

Notary Public Affiant

 

 

38624
Michelle Valent v. Andrew M. Saul, Commissioner of Social Security
U.S. Supreme Ct. No. 19-221
Service List

Attorney for Petitioner, Michelle Valent:
Adam Rabun Fast Gustafson

Boyden Gray & Associates PLLC

801 17th Street, NW, Suite 350
Washington, DC 20006

(202) 577-5681
gustafson@boydengrayassociates.com

Attorney for Respondent, Andrew M. Saul, Commissioner of Social Security:
Noel J. Francisco, Solicitor General

United States Department of Justice

Room 5616

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001

(202) 514-2217

SupremeCtBriefs@USDOJ.gov
